TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                Identification of Unreported Self-Employment
                            Taxes Can Be Improved



                                        October 11, 2007

                              Reference Number: 2008-30-001




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 2(c) = Law Enforcement Tolerance(s)

 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                               DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               October 11, 2007


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT

 FROM:                          Michael R. Phillips
                                Deputy Inspector General for Audit

 SUBJECT:                       Final Audit Report – Identification of Unreported Self-Employment
                                Taxes Can Be Improved (Audit # 200630028)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) processing
 of Social Security and Medicare taxes on self-employment income. The overall objective of this
 review was to determine the effectiveness of the IRS’ process for identifying and auditing
 taxpayers who are subject to but do not pay self-employment taxes. This review was part of our
 Fiscal Year 2007 audit plan and contributes to our efforts to assess the Fiscal Year 2007 Major
 Management Challenge of addressing the tax gap.1

 Impact on the Taxpayer
 According to the Government Accountability Office, outlays from the main trust funds of the
 Social Security and Medicare programs are projected to exceed revenues in the next decade. As
 the tax collector for the Social Security and Medicare programs, the IRS must help
 self-employed taxpayers meet their tax responsibilities by assessing and collecting the proper
 amount of self-employment taxes. We estimate the IRS could assess an additional $19 million in
 Social Security and Medicare taxes each year by making the changes recommended in this
 report.

 Synopsis
 Taxpayers generally pay self-employment taxes on net self-employment earnings of $400 or
 more in a given tax year, in addition to any income taxes that may be due; they are considered to
 be self-employed if they conduct a trade or business as a sole proprietor, earn income as an

 1
     See Appendix V for a Glossary of Terms.
                           Identification of Unreported Self-Employment Taxes
                                              Can Be Improved



independent contractor or a member of a partnership, or are in any way in business for
themselves. Taxpayers with self-employment income should use a U.S. Individual Income Tax
Return (Form 1040) Self-Employment Tax (Schedule SE) to calculate the amount of
self-employment taxes and attach the Schedules SE to their Forms 1040.
The IRS Office of Internal Audit and the Treasury Inspector General for Tax Administration
issued audit reports in 19982 and 2000,3 respectively, that focused on the identification and
collection of self-employment taxes. Both reports found (1) individual returns with unreported
self-employment taxes could be identified during initial processing, (2) self-employment taxes
should be assessed before any refunds are issued to taxpayers, and (3) the IRS could improve
its processes to more accurately identify the taxpayers and income that are subject to
self-employment taxes. Most recommendations from our prior reports have been reported as
implemented. However, the IRS has not implemented our recommendation that the
Correspondence Examination function initiate a program to immediately work significant cases
with refunds available to offset against the unreported self-employment taxes.
We reviewed the assignment of Return Processing Code (RPC) “N,” which is used by the
Submission Processing function to indicate a return with apparent nonemployee compensation
on Form 1040 line 21 (Other income) that should be reviewed for self-employment tax liability.
When RPC “N” was input, it was generally warranted; however, 29 percent of the cases in our
samples with significant entries on line 21 should have had RPC “N” input but did not. We
discussed the procedures for assigning RPC “N” with IRS personnel and found inconsistent
guidance for the treatment of returns reporting on line 21 income that is potentially subject to the
self-employment tax.
To determine the effectiveness of the IRS’ current processes for identifying and auditing
taxpayers who are subject to but do not pay self-employment taxes, we selected a statistically
valid sample of 138 Tax Year (TY) 2003 returns that reported income of $2,0004 or more on a
Form 1040 Profit or Loss From Business (Schedule C), Profit or Loss From Farming
(Schedule F), and/or line 21 (Other income) but did not include a Schedule SE. We found
52 (38 percent) of the 138 returns in our sample had been selected for audit by the IRS, and the
audits had been completed for 50 returns. Of the 50 returns, 5 had been closed as “no-change”
returns (i.e., no changes were made to the tax liabilities) and 12 had been surveyed, meaning the
audits were closed with little or no examination5 of the returns. The remaining 33 of 50 returns
had been closed with additional tax liabilities averaging $1,818 per return.


2
  Compliance With Self-Employment Tax Requirements (Reference Number 083502, dated May 19, 1998).
3
  The Internal Revenue Service Needs to Improve the Identification and Collection of Unreported Self-Employment
Taxes (Reference Number 2000-30-151, dated September 2000).
4
  For the purposes of the current and previous audits, our materiality threshold was self-employment income of
$2,000 or more for which no self-employment taxes were paid.
5
  As used in this report, the terms “examination” and “audit” are synonymous.
                                                                                                                  2
                           Identification of Unreported Self-Employment Taxes
                                              Can Be Improved



Of the 86 returns in our sample that had not been selected for audit, 28 (33 percent) appeared to
have self-employment tax liabilities. A total of $34,089 in self-employment taxes could have
been assessed on the 28 returns (average of $1,217 per return); 6 of the 28 returns had potential
assessments exceeding $2,000 per return.
We also noted a significant problem with assigning Audit Code “V”6 to returns. Of the
138 TY 2003 returns in our sample, 33 (24 percent) either had Audit Code “V” improperly
assigned when a return had no self-employment tax issue or did not have the Code assigned
when a self-employment tax issue was present.
Overall, 35 (25 percent) of all returns in our sample had potential self-employment tax issues but
either were not selected for audit or were surveyed although the taxpayers had not properly
reported self-employment taxes; 15 (43 percent) of these 35 returns had refunds available to
offset all or part of the self-employment tax liabilities.

Recommendations
We recommended the Commissioner, Wage and Investment Division, (1) emphasize the
importance of properly assigning RPC “N” to returns with potential self-employment tax
liabilities and provide additional training to tax examiners in the Code and Edit function to
improve the review of income reported on Form 1040 line 21, especially for returns with missing
or unclear descriptions of the income, and (2) strengthen the processes for reviewing returns
upon initial receipt for potential unpaid self-employment taxes, especially the processes for
including the statutory income indicator in the W-2 database and for assigning Audit Code “V”
to appropriate returns. We recommended the Commissioner, Small Business/Self-Employed
Division, reconsider the decision to cancel our previous recommendation to immediately work
cases with significant unreported self-employment tax, a refund available to be applied to the
unreported self-employment tax, and no response or an inadequate response to any letter issued
by the IRS during returns processing.

Response
IRS management agreed with the first two recommendations and disagreed with the third
recommendation. The Director, Submission Processing, Wage and Investment Division, will
coordinate with the Learning and Education function to explore the possibility of expanding
existing RPC “N” and Audit Code “V” editing training in course materials to be issued
January 1, 2008. However, the Commissioner, Small Business/Self-Employment Division,
disagreed with our recommendation to consider immediately working cases with significant

6
 Audit Code “V” is used by the Code and Edit function at IRS campuses during initial processing to identify returns
with income that may be subject to the self-employment tax.
                                                                                                                 3
                       Identification of Unreported Self-Employment Taxes
                                          Can Be Improved



unreported self-employment tax, a refund available to be applied to the unreported
self-employment tax, and no response or an inadequate response to any letter issued by the IRS
during returns processing. IRS management stated the parameters could not be accurately
identified to ensure the IRS would not be holding the refunds of taxpayers not subject to
self-employment taxes. In addition, management noted that their current process for selecting
inventory excludes most of the returns originally assigned RPC “N” and/or Audit Code “V.”
Management’s complete response to the draft report is included as Appendix VI.

Office of Audit Comment
While we agree it is important to not delay refunds properly owed to taxpayers, we also believe it
is important to not issue large refunds to taxpayers who will ultimately owe additional taxes.
Based on the results of this and previous audits, we maintain it is feasible for the IRS to initiate
examinations of the returns of taxpayers that appear to owe a significant amount of
self-employment tax, have an available refund, and have not responded to initial contact letters
from the IRS, and we encourage the IRS to move in that direction. In addition, it has long been
noted by the IRS that “upstream” prevention efforts during returns processing are lower in cost
and less intrusive to taxpayers than one-on-one enforcement efforts occurring later in the
process.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs), at (202) 622-5894.




                                                                                                  4
                               Identification of Unreported Self-Employment Taxes
                                                  Can Be Improved




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Internal Revenue Service Has Implemented Most of Our Previous
          Recommendations for Identifying Taxpayers Who May Be Subject
          to Self-Employment Tax...............................................................................Page 3
          Procedures for Assigning Return Processing Code “N”
          Should Be Improved .....................................................................................Page 5
                    Recommendation 1:........................................................Page 6

          Procedures for Selecting Returns With Potential Unpaid
          Self-Employment Tax for Audit Should Be Strengthened ...........................Page 7
                    Recommendation 2:........................................................Page 12

          Priority Should Be Given to Initiating Correspondence Examinations
          for Returns With Significant Amounts of Potential Unpaid
          Self-Employment Tax and Refunds Available .............................................Page 12
                    Recommendation 3:........................................................Page 14


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 15
          Appendix II – Major Contributors to This Report ........................................Page 18
          Appendix III – Report Distribution List .......................................................Page 19
          Appendix IV – Outcome Measures...............................................................Page 20
          Appendix V – Glossary of Terms .................................................................Page 22
          Appendix VI – Management’s Response to the Draft Report ......................Page 24
      Identification of Unreported Self-Employment Taxes
                         Can Be Improved




                Abbreviations

IRS       Internal Revenue Service
RPC       Return Processing Code
TY        Tax Year
                           Identification of Unreported Self-Employment Taxes
                                              Can Be Improved




                                            Background

In general, taxpayers pay self-employment taxes on net self-employment earnings of $400 or
more in a given tax year, in addition to any income
taxes that may be due;1 they are considered to be
                                                            Underreported self-employment
self-employed if they conduct a trade or business as a
                                                            tax is estimated to be the single
sole proprietor, earn income as an independent             largest component of the tax gap.
contractor or a member of a partnership, or are in any
way in business for themselves. Certain types of
income are exempt from self-employment tax,2 as are
members of certain religious organizations that are conscientiously opposed to accepting public
insurance benefits.3
Taxpayers typically report self-employment income on their U.S. Individual Income Tax Returns
(Form 1040) using Profit or Loss From Business (Schedule C) and/or Profit or Loss From
Farming (Schedule F). Certain types of self-employment income are mistakenly reported on
Form 1040 line 21 (Other income), particularly “nonemployee” compensation reported to
taxpayers on Miscellaneous Income (Form 1099-MISC).
Taxpayers with self-employment income should calculate the amount of self-employment
taxes and the associated income tax deductions4 using a Form 1040 Self-Employment Tax
(Schedule SE) and attach the Schedules SE to their Forms 1040. The maximum
self-employment tax rate is currently 15.3 percent and consists of 2 components: 12.4 percent
for Social Security (payable on the first $94,200 of combined wages and net earnings in 2006)
and 2.9 percent for Medicare (no income limitation).
The Internal Revenue Service (IRS) estimated the gross tax gap5 for Tax Year (TY) 2001 to be
approximately $345 billion. Of this amount, about $54 billion (16 percent) is attributable to
underreported employment taxes. Self-employment tax is estimated to make up about
$39 billion (72 percent) of underreported employment taxes, or 11 percent of the total gross tax
gap, making it one of the largest components of the tax gap. The added burden of the tax gap on



1
  Internal Revenue Code Sections 1401-1403 (2002).
2
  These include fees earned as a notary public, income from real estate or farm rentals for taxpayers who are not
active in these businesses, and payments to retired partners who are not active in the partnership.
3
  Members of these organizations must also file an Application for Exemption From Social Security and Medicare
Taxes and Waiver of Benefits (Form 4029).
4
  Taxpayers may deduct one-half of the self-employment taxes paid from their total income reported on Form 1040.
5
  See Appendix V for a Glossary of Terms.
                                                                                                          Page 1
                          Identification of Unreported Self-Employment Taxes
                                             Can Be Improved



taxpayers is substantial—the IRS National Taxpayer Advocate testified that the tax gap added
about $2,000 to the average tax bill in 2001.6
In addition to increasing the tax gap, failure to identify and collect the correct amount of
self-employment taxes also contributes to the deteriorating financial outlook for the Social
Security and Medicare programs. The Government Accountability Office has reported that
outlays from the Social Security7 and Medicare8 trust funds will begin to exceed revenues in the
next decade.9 As the tax collector for the Social Security and Medicare programs, the IRS must
help self-employed taxpayers meet their tax responsibilities by assessing and collecting the
proper amount of self-employment taxes.
This review was performed at the Small Business/Self-Employed Division National
Headquarters in New Carrollton, Maryland; the Submission Processing function of the IRS
Fresno Campus in Fresno, California; the Examination Operations function of the IRS Cincinnati
Campus in Covington, Kentucky; and the Small Business/Self-Employed Division Planning and
Workload Selection function in Florence, Kentucky, during the period August 2006 through
March 2007. The audit was conducted in accordance with Government Auditing Standards.
This review was part of our Fiscal Year 2007 audit plan and contributes to our efforts to assess
the Fiscal Year 2007 Major Management Challenge of addressing the tax gap.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




6
  Testimony of Nina E. Olson, National Taxpayer Advocate, before the Senate Committee on Finance on the Tax
Gap and Tax Shelters, July 2004.
7
  The Social Security program has two trust funds: the Old Age Survivors Insurance Trust Fund and the Disability
Insurance Trust Fund.
8
  The Medicare program has two trust funds: the Hospital Insurance Trust Fund and the Supplemental Medical
Insurance Trust Fund.
9
  For Social Security funding, see Social Security Reform: Greater Transparency Needed about Potential General
Revenue Financing (GAO-07-213, dated March 2007). For Medicare funding, see Medicare: Financial Challenges
and Considerations for Reform (GAO-03-577T, dated April 10, 2003).
                                                                                                        Page 2
                          Identification of Unreported Self-Employment Taxes
                                             Can Be Improved




                                     Results of Review

The Internal Revenue Service Has Implemented Most of Our Previous
Recommendations for Identifying Taxpayers Who May Be Subject to
Self-Employment Tax
The IRS Office of Internal Audit and the Treasury Inspector General for Tax Administration
issued audit reports in 199810 and 2000,11 respectively, that focused on the identification and
collection of self-employment taxes. Both reports found (1) individual returns with unreported
self-employment taxes could be identified during initial processing, (2) self-employment taxes
should be assessed before any refunds are issued to taxpayers, and (3) the IRS could improve
its processes to more accurately identify the taxpayers and income that are subject to
self-employment taxes. The recommendations from the reports are shown in Figures 1 and 2,
along with the status of the recommendations from the Joint Audit Management Enterprise
System.
                         Figure 1: Status of Recommendations From
                              Report Reference Number 083502
                                     Recommendations                                                 Status
 1. The Office of Internal Audit will monitor the results of our sample of cases in the      Implemented
 three service centers and provide these results to the Service Center Examination
 Section in the National Office. If the results warrant, management should request a
 computer program similar to ours to identify, during processing, those cases owing
 self-employment taxes.
 2. Management should solicit a position paper from the IRS Office of Chief Counsel          Implemented
 regarding the legality of freezing a taxpayer’s refund on a self-employment tax issue.
 3. The Submission Processing function should incorporate into the training of Code          Implemented
 and Edit function tax examiners details regarding the specific types of income included
 on Form 1040 line 21 that should be considered as self-employment income and should
 emphasize the importance of properly coding this information.
Source: Report Reference Number 083502 and the Joint Audit Management Enterprise System report for
Report 083502.




10
  Compliance With Self-Employment Tax Requirements (Reference Number 083502, dated May 19, 1998).
11
  The Internal Revenue Service Needs to Improve the Identification and Collection of Unreported Self-Employment
Taxes (Reference Number 2000-30-151, dated September 2000).
                                                                                                        Page 3
                         Identification of Unreported Self-Employment Taxes
                                            Can Be Improved



                        Figure 2: Status of Recommendations From
                           Report Reference Number 2000-30-151
                                   Recommendations                                            Status
 1. The Chief Operations Officer should ensure programming is completed to identify          Implemented
 unreported self-employment taxes during processing. Educational letters similar to
 those sent to taxpayers by the Kansas-Missouri District Office Research and Analysis
 function should then be sent to these taxpayers.
 2. The Assistant Commissioner (Customer Service) should initiate a program for the          Cancelled
 Correspondence Examination function to immediately work significant cases with a
 refund available to offset against the unreported self-employment tax and no response
 or an inadequate response to any letter issued by the IRS during returns processing.
 3. The Assistant Commissioner (Forms and Submission Processing) should take steps Implemented
 to ensure information from Application for Exemption From Social Security and
 Medicare Taxes and Waiver of Benefits (Form 4029) and Application for Exemption
 From Self-Employment Tax for Use by Ministers, Members of Religious Orders and
 Christian Science Practitioners (Form 4361) is accurately entered in IRS computers.
 4. The Assistant Commissioner (Forms and Submission Processing) should develop a            Implemented
 means of capturing the identity of taxpayers who are contacted to pay self-employment
 taxes but indicate they have filed either Form 4029 or Form 4361. This information
 should be used to perfect the IRS’ database of taxpayers who are exempt from
 self-employment tax.
 5. The Assistant Commissioner (Forms and Submission Processing) should improve              Implemented
 instructions for Form 1040 line 21, to make it clearer to taxpayers that they should not
 include self-employment income on line 21 and to help taxpayers understand what
 constitutes self-employment income.
 6. The Assistant Commissioner (Forms and Submission Processing) should take steps Implemented
 to ensure data transcribers do not overlook the statutory employee checkbox on
 Form 1040 Schedule C and Form 1040 Net Profit From Business (Schedule C-EZ).
 7. The Assistant Commissioner (Customer Service) should revise the formula for              Implemented
 scoring the self-employment tax inventory so it accurately reflects the potential
 self-employment tax deficiency on a tax return.
 8. The Assistant Commissioner (Customer Service) should consider certain changes to Implemented
 the educational letter sent to taxpayers with potential self-employment tax deficiencies.
 9. The Assistant Commissioner (Customer Service) should consider the feasibility of         Rejected
 sending different letters to taxpayers based on the amount of self-employment income
 earned by the taxpayer.
Source: Report Reference Number 2000-30-151 and the Joint Audit Management Enterprise System report for
Report 2000-30-151.

As shown in Figures 1 and 2, most recommendations from our prior reports have been reported
as implemented. Even though the IRS initially agreed with Recommendation 2 in our 2000
report (see Figure 2), it requested cancellation of the Recommendation in 2004 by stating:
        Because we do not have a systemic filter to identify returns with high potential for
        self-employment tax, we cannot justify holding refunds. Also, we do not have a systemic
        method to hold refunds on returns with potential self-employment tax liabilities.


                                                                                                 Page 4
                             Identification of Unreported Self-Employment Taxes
                                                Can Be Improved



The IRS rejected Recommendation 9 in its response to our audit report issued in 2000, stating
that sending different letters to taxpayers would result in disparate treatment of taxpayers.
Although we did not agree with the IRS’ rejection of this Recommendation, we did not elevate
the dispute to the Department of the Treasury.
Due to the length of time since our previous reports were issued and changes in the IRS’
structure and operations in the intervening years, we initiated a review of the current state of the
processes for identifying and auditing taxpayers who are subject to but do not pay
self-employment taxes.

Procedures for Assigning Return Processing Code “N” Should Be
Improved
The IRS uses Return Processing Codes (RPC) to identify special conditions or computations in
returns that otherwise would not post to the IRS Master File. RPC “N” is intended to indicate a
return with what appears to be nonemployee compensation on Form 1040 line 21 (Other income)
that should be reviewed for self-employment tax liability. This determination is normally made
by a tax examiner who initially reviews the return upon its receipt in the Code and Edit function
of the Submission Processing function at an IRS campus. The guidance for assigning RPC “N”
to returns is found in the Internal Revenue Manual. In summary, RPC “N” should be assigned to
returns that report self-employment income of more than a specified amount on line 21 but do
not include a Schedule SE to assess the self-employment tax liability.
To determine whether RPC “N” is being properly assigned to returns with potential
self-employment tax liabilities, we obtained data from the IRS Master File for 24,989 TY 2005
Forms 1040 that reported more than a certain dollar amount on line 21 and were assigned
RPC “N.” From this population, we reviewed a statistically valid sample of 138 Forms 104012
and determined RPC “N” was correctly assigned for 132 (96 percent) of the returns reviewed.
To determine if there were returns that should have been assigned RPC “N” but were not, we
obtained data from the IRS Master File for 5,030,333 TY 2005 Forms 1040 that reported more
than a certain dollar amount on line 21 but were not assigned RPC “N.” From this population,
we reviewed a statistically valid sample of 138 Forms 104013 and determined RPC “N” should
have been assigned to 40 (29 percent) of the returns reviewed.
While there were a variety of factors involved with the 40 returns that should have been assigned
RPC “N,” we noted that 18 (45 percent) of the 40 returns were filed electronically and
33 (83 percent) contained little or no description of the income reported on line 21. Without
some sort of description of the income on line 21, it is unclear to us how tax examiners
determined the amounts reported were not potentially subject to self-employment taxes. Unless

12
     See Appendix I for details on the sampling methodology.
13
     See Appendix I for details on the sampling methodology.
                                                                                              Page 5
                       Identification of Unreported Self-Employment Taxes
                                          Can Be Improved



the description of the line 21 income makes it clear the amount is not subject to self-employment
tax, RPC “N” should be assigned to the return so the taxpayer will be contacted to provide an
explanation for the income.
We discussed our review methodology and the results of our review for selected returns with IRS
personnel at the Fresno Campus. We noted inconsistencies in assigning RPC “N” to returns with
line 21 income reported on a Form 1099-MISC and were informed the practice at that Campus
was to assign RPC “N” only when the Form 1099-MISC reports income in box 7 (Nonemployee
compensation). We noted Internal Revenue Manual Section 3.11.3 did not specifically require
that only returns with income reported in Form 1099-MISC box 7 be assigned RPC “N.” We
asked IRS officials if the practice used at the Fresno Campus was the standard for all campuses
or a matter of local discretion and were advised that:
       While the practice of deviating from existing IRM [Internal Revenue Manual]
       instructions is discouraged, it appears that both Fresno and Philadelphia are correct.
       Consequently, Hot Topic W&I [Wage and Investment]-IA-2002-510 was issued on
       March 21, 2007[,] to remedy this problem. Tax Examiners are now instructed at
       3.11.3.14.2.15 (pg. 164) to edit RPN[sic] “N” when Form 1099-MISC is present with an
       amount in box 7. (emphasis added)
Although we agree that amounts reported in Form 1099-MISC box 7 are likely to be subject to
self-employment taxes and should be assigned RPC “N,” the treatment of other amounts, such as
those reported in box 3 (Other income), is less certain. The instructions for Form 1099-MISC
list items such as “prizes, awards, taxable damages, Indian gaming profits” as income that should
be reported in box 3; however, they also include a catchall of “other taxable income.” Many
small businesses and sole proprietors provide Forms 1099-MISC to their workers, and some may
not understand the distinction between other taxable income to be reported in box 3 and
nonemployee compensation to be reported in box 7. Some cases in our sample of TY 2005
returns that were not assigned RPC “N” involved income reported in Form 1099-MISC box 3
that appeared to be from self-employment, based on the fact that the Form 1099-MISC was
issued by a business. Because of this, we believe the review of Form 1099-MISC income should
not be limited to considering just amounts reported in box 7 but should also include all amounts
reported on Form 1099-MISC, especially if the description of the income on Form 1040 line 21
is missing or unclear.

Recommendation
Recommendation 1: The Commissioner, Wage and Investment Division, should emphasize
the importance of properly assigning RPC “N” to returns with potential self-employment tax
liabilities and provide additional training to tax examiners in the Code and Edit function to
improve the review of income reported on Form 1040 line 21, especially for returns with missing
or unclear descriptions of the income.

                                                                                          Page 6
                              Identification of Unreported Self-Employment Taxes
                                                 Can Be Improved



           Management’s Response: IRS management agreed with this recommendation. The
           Director, Submission Processing, Wage and Investment Division, will coordinate with
           the Learning and Education function to explore the possibility of expanding existing
           RPC “N” editing training in course material to be issued January 1, 2008.

Procedures for Selecting Returns With Potential Unpaid
Self-Employment Tax for Audit Should Be Strengthened
Correspondence examinations14 are the primary method used to audit individual returns with only
potential self-employment tax liabilities. These examinations are conducted primarily by mail
by tax examiners at various IRS campuses located throughout the country.
Returns with potential self-employment tax issues are selected for correspondence examination
by the Workload Selection and Delivery function within the Small Business/Self-Employed
Division Planning and Workload Selection function. A planned number of cases to be selected
for self-employment tax examination, as well as other areas of emphasis, is developed each year
by Workload Selection and Delivery function personnel in coordination with Small Business/
Self-Employed Division management.
Once the planned number of examinations is established, the Workload Selection and Delivery
function extracts data from the Midwest Automated Compliance System database to identify
returns that may be subject to self-employment tax. Filters are run against the data extracts to
exclude taxpayers that are not likely to be subject to self-employment tax.
When the planned number of returns with potential self-employment tax issues is identified, the
correspondence examination workload is assigned to Examination Operations function teams in
various IRS campuses based on the annual workplan for each campus. The correspondence
examination process typically does not begin until several months after the filing of the return.
We met with representatives of the Examination Operations function at the Cincinnati Campus in
January 2007 and were informed that they were completing work on TY 2004 returns with
potential self-employment tax issues, most of which were filed in early 2005 and examined in
Fiscal Year 2006.
Based on the following factors, we determined the self-employment tax examination program
could be improved:
       •   The assessments per return for self-employment tax cases were much lower than those
           for other correspondence examination cases, and the no-change rate was much higher.
       •   A significant number of potential self-employment tax cases were overlooked during
           processing and were never included in the potential self-employment tax inventory; many


14
     As used in this report, the terms “examination” and “audit” are synonymous.
                                                                                           Page 7
                          Identification of Unreported Self-Employment Taxes
                                             Can Be Improved



        had potential unpaid self-employment taxes amounting to more than that on the cases
        identified and examined.
    •   Many self-employment tax cases were surveyed (meaning the audit was closed with little
        or no examination of the return), although the taxpayers had not properly reported
        self-employment taxes.
    •   Inaccuracies in some of the data used to select returns for audit may contribute to
        problems with the identification and selection of returns.

The assessments per return for self-employment tax cases were much lower than
those for other correspondence examination cases, and the no-change rate was
much higher
Approximately 29,000 examinations of returns with potentially unpaid self-employment taxes
were closed in Fiscal Year 2006 for the primary Audit Information Management System project
codes established for self-employment tax examinations. More than 21,000 of these
examinations resulted in taxpayers owing additional taxes totaling almost $42 million or
approximately $2,000 per return. However, more than 27 percent of the examinations were
closed without an assessment (i.e., no changes were made to tax liabilities). Figure 3 shows that
the assessment per return and the no-change rate for self-employment tax examinations do not
compare favorably to the overall results for Fiscal Year 2006 correspondence examinations of
individual taxpayers because the assessment per return was lower and the no-change rate was
higher. Our analysis of the overall Fiscal Year 2006 results excluded taxpayers with incomes of
$100,000 or more who would most likely be subject only to the 2.9 percent Medicare tax and
therefore would not be selected for a self-employment tax correspondence examination.
   Figure 3: Comparison of Self-Employment Tax Correspondence Examination
    Results to Overall Correspondence Examination Results (Fiscal Year 2006)
             Type of Examination                        Assessment per Return           No-change Rate
 Self-employment Tax Correspondence                            $1,976                       27.3%
 Individual Correspondence (income < $100K)                    $3,748                       16.0%
Source: Our analysis of IRS 2006 Data Book data and Fiscal Year 2006 self-employment tax examination data for
Audit Information Management System Project Codes 0124 (SE Tax), 0395 (SE Tax Not Reported by Taxpayer), and
0376 (Bogus Schedule C Losses Identified Through Criminal Investigation Referrals) provided by the Small
Business/Self-Employed Division. SE = Self-employment.

A significant number of potential self-employment tax cases were overlooked
during processing and were never included in the potential self-employment tax
inventory
To determine the effectiveness of the IRS’ current processes for identifying and auditing
taxpayers who are subject to but do not pay self-employment taxes, we selected a statistically
                                                                                                     Page 8
                           Identification of Unreported Self-Employment Taxes
                                              Can Be Improved



valid sample of 138 TY 2003 returns that reported income of $2,00015 or more on Form 1040
Schedule C, Schedule F, and/or line 21 (Other income) but did not include a Schedule SE. Of
the 138 returns selected in our sample, 52 (38 percent) had been selected for audit by the IRS,
and the audits had been completed for 50 returns. Of the 50 returns with completed audits, 5 had
been closed as no-change returns and 12 had been surveyed. The remaining 33 of 50 returns had
been closed with additional tax liabilities averaging $1,818 per return. The results of this review
are summarized in Figure 4.
        Figure 4: IRS Examination Results for TY 2003 Returns in Our Sample
                                                 Percentage of             Percentage of          Average
                                       Number       Sample                   Returns             Assessment
                                      of Returns     (138)                 Audited (50)          per Return
         Returns With
                                            50               36%                  N/A                 N/A
       Completed Audits
        Returns Owing
                                            33               24%                 66%                $1,818
       Additional Taxes
       Returns Closed As
                                            5                4%                  10%                  N/A
          No-change
       Returns Surveyed                     12               9%                  24%                  N/A
Source: Our review of TY 2003 individual tax returns. N/A = not applicable.

We reviewed the 86 returns that had not been selected for audit and determined 28 (33 percent)
appeared to have self-employment tax liabilities. For these returns, the taxpayers did not appear
to be exempt from self-employment taxes but had not filed Schedules SE. We determined
$34,089 in self-employment taxes could have been assessed on the 28 returns (average of
$1,217 per return). Six (21 percent) of the 28 returns had potential assessments exceeding
$2,000 per return. Where applicable, our estimated assessments were reduced to allow for the
effect that the deduction of one-half of the self-employment taxes from the taxpayers’ taxable
incomes would have on their income tax liabilities. The results of this review are summarized in
Figure 5.




15
  For the purposes of the current and previous audits, our materiality threshold was self-employment income of
$2,000 or more for which no self-employment taxes were paid.
                                                                                                           Page 9
                              Identification of Unreported Self-Employment Taxes
                                                 Can Be Improved



           Figure 5: Review of TY 2003 Returns With Potential Self-Employment
                     Tax Liabilities Not Selected for Review by the IRS
                                                                                         Average
                                          Number     Percentage of      Percentage of    Potential
                                            of        Nonselected          Sample       Assessment
                                          Returns        (86)               (138)       per Return
     Total Nonselected Returns
           With Potential                     28         33%                  20%         $1,217
       Self-Employment Tax
     Nonselected Returns With
     Potential Self-Employment                 6          7%                  4%           N/A
            Tax > $2,000
        Nonselected Returns
         Without Potential                    58         67%                  42%          N/A
       Self-Employment Tax
Source: Our review of TY 2003 individual tax returns. N/A = not applicable.

Projecting the percentage of nonselected returns with potential self-employment tax to our
sample universe, as adjusted for certain inaccuracies discussed below, we estimate that an
additional 15,492 TY 2003 Forms 1040 had self-employment tax liabilities but were not selected
for examination. Assuming the examinations would have been closed as no-change at the same
rate as in Fiscal Year 2006 (27.3 percent), based on our statistical sample, the IRS could have
assessed approximately $13.7 million more in Social Security and Medicare taxes on
11,263 TY 2003 returns not selected for examination.16

Many cases were surveyed, although the taxpayers had not properly reported
self-employment taxes

We reviewed the 12 returns that had been surveyed and could not determine a sound basis for
the decision for 7 returns (58 percent). The taxpayers in these cases appeared to report
self-employment income subject to self-employment tax and did not appear to be exempt
from self-employment tax, but they had not filed Schedules SE. We determined $13,216 in
self-employment taxes could have been assessed on the 7 returns (average of $1,888 per return).
The estimated assessments were reduced to allow for the effect of the deduction of one-half of
the self-employment taxes on the taxpayers’ income tax liabilities. The results of this review are
summarized in Figure 6.




16
     See Appendix IV for details on the estimates.
                                                                                              Page 10
                              Identification of Unreported Self-Employment Taxes
                                                 Can Be Improved



                   Figure 6: Review of TY 2003 Returns Surveyed by the IRS
                                                                                            Average
                                          Number      Percentage of           Percentage    Potential
                                            of          Surveyed              of Sample    Assessment
                                          Returns         (12)                   (138)     per Return
      Returns Surveyed With
      No Apparent Basis for                    7            58%                  5%
                                                                                             $1,888
            Decision
      Returns Surveyed With
        Apparent Basis for                     5            42%                  4%           N/A
            Decision
Source: Our review of TY 2003 individual tax returns. N/A = not applicable.

Based on our sample, we estimate an additional 3,873 TY 2003 Forms 1040 had
self-employment tax liabilities but were surveyed without justification. Assuming the
examinations would have been closed as no-change returns at the same rate as in Fiscal
Year 2006, we estimate the IRS could have assessed approximately $5.3 million more in Social
Security and Medicare taxes on 2,816 TY 2003 returns surveyed without justification.17
Overall, the significant percentage of unexamined (including surveyed) returns with potential
self-employment tax liabilities in our review of TY 2003 returns indicates a need for the IRS to
improve its review of returns upon initial receipt for potential self-employment tax liabilities and
its selection of returns for audit. The comparison of current performance statistics for the
self-employment tax examination program to those for correspondence examinations in general
(see Figure 3) also supports this conclusion.

Inaccuracies in some of the data used to select returns for audit may contribute
to problems with the identification and selection of returns
To obtain a valid sample of 138 TY 2003 returns, we were required to select and review
193 returns because 55 returns that appeared to meet our selection criteria were eliminated from
the sample. Of the 193 total returns reviewed, 30 (16 percent) reported statutory income on
Schedule C, but the taxpayers’ records in the W-2 database did not include the code indicating
the presence of statutory income. The failure to properly include this code in the W-2 database
could cause returns to be improperly selected for audit and result in increases in the number of
examinations closed by survey or as no-change returns.
We also noted a significant problem with assigning Audit Code “V” to returns, which is used by
the Code and Edit function at IRS campuses during initial processing to identify returns with
income that may be subject to self-employment tax. Of the 138 returns in our sample of

17
     See Appendix IV for details on the estimates.
                                                                                                Page 11
                       Identification of Unreported Self-Employment Taxes
                                          Can Be Improved



TY 2003 returns, 33 (24 percent) either had Audit Code “V” improperly assigned when a return
had no self-employment tax issue or did not have the Code assigned when a self-employment tax
issue was present. The returns that were improperly assigned the Code could have been selected
for audit without self-employment tax issues being present, resulting in surveyed or no-change
examinations. Returns that were not assigned the Code may not have been selected for audit,
and the proper self-employment taxes would not have been assessed.

Recommendation

Recommendation 2: The Commissioner, Wage and Investment Division, should strengthen
the processes for reviewing returns upon initial receipt for potential unpaid self-employment
taxes, especially the processes for including the statutory income indicator in the W-2 database
and assigning Audit Code “V” to appropriate returns.
       Management’s Response: IRS management agreed with this recommendation. The
       Director, Submission Processing, Wage and Investment Division, will coordinate with
       the Learning and Education function to explore the possibility of expanding existing
       Audit Code “V” editing training in course material to be issued January 1, 2008.

Priority Should Be Given to Initiating Correspondence Examinations
for Returns With Significant Amounts of Potential Unpaid
Self-Employment Tax and Refunds Available

We reviewed a statistically valid sample of 138 TY 2003 returns that reported income of
$2,000 or more on Form 1040 Schedule C, Schedule F, and/or line 21 (Other income) without
a Form 1040 Schedule SE associated with the return. Of these 138 returns, 35 (25 percent) had
potential self-employment tax issues but either were not selected for audit or were surveyed,
although the taxpayers had not properly reported self-employment taxes. As shown in Figure 7,
15 (43 percent) of the 35 returns with potential self-employment tax issues had refunds available
to offset all or part of the self-employment tax liabilities.




                                                                                          Page 12
                            Identification of Unreported Self-Employment Taxes
                                               Can Be Improved



Figure 7: Nonexamined TY 2003 Returns With Refunds Available to Offset All or
Part of the Potential Self-Employment Tax Liabilities
                                                                                                     Percentage
                                                              Returns                                  of Self-
                                           Total                With                                Employment
                                         Potential           Refunds to           Refunds to             Tax
                          Number            Self-            Offset Self-         Offset Self-        Liability
                            of          Employment          Employment           Employment           Offset by
                          Returns       Tax Liability           Tax                  Tax18            Refunds
        Returns
     Surveyed With
      No Apparent             7            $13,216                  2                $1,087                8%
        Basis for
        Decision
       Nonselected
      Returns With
     Potential Self-          28           $34,089                 13                $7,082               21%
      Employment
          Tax
Source: Our review of TY 2003 individual tax returns.

In Figure 7, the 2 surveyed returns had an average potential self-employment tax liability
of $1,249 and an average refund of $544 (44 percent) available to offset the unpaid
self-employment tax liability. The 13 nonselected returns had an average potential
self-employment tax liability of $1,193 and an average refund of $545 (46 percent) available to
offset all or part of the unpaid self-employment tax liabilities. Our calculation of available
refunds did not include the portions of any refunds that exceeded the potential tax liabilities for
the returns reviewed (10 returns in the calculation that either were nonselected or had been
surveyed had refunds exceeding the potential self-employment tax liabilities).
For the 33 returns in our sample that owed additional self-employment taxes (see Figure 4),
13 (39 percent) had refunds available to offset all (8) or part (5) of the self-employment tax
liabilities. The average refund amount available for these returns was $1,714.
At the time it requested cancellation of Recommendation 2 from our audit report issued in 2000,
the IRS stated it could not justify holding refunds because it did “not have a systemic filter to
identify returns with high potential for self-employment tax.” As discussed previously, our
interviews with IRS personnel indicated that a systematic method is now used to select returns
for review. The IRS also stated in its request for cancellation that it did “not have a systemic

18
  For returns with refunds exceeding the amount of potential self-employment tax liability, only the portion of the
refund equaling the amount of self-employment tax liability was included in the computation.
                                                                                                            Page 13
                           Identification of Unreported Self-Employment Taxes
                                              Can Be Improved



method to hold refunds on returns with potential self-employment tax liabilities.” However, a
freeze code could be used to hold refunds for returns with potential self-employment tax
liabilities, as is currently done to hold refunds for various other conditions such as a duplicate
return, an amended return, or a potential manual interest or penalty adjustment.

Recommendation
Recommendation 3: The Commissioner, Small Business/Self-Employed Division, should
reconsider the decision to cancel our previous recommendation to immediately work cases with
significant19 unreported self-employment tax, a refund available to be applied to the unreported
self-employment tax, and no response or an inadequate response to any letter issued by the IRS
during returns processing.
Management’s Response: The Commissioner, Small Business/Self-Employed Division,
disagreed with our recommendation, stating that the parameters could not be accurately
identified to ensure the IRS would not be holding the refunds of taxpayers not subject to
self-employment tax. In addition, management noted that their current process for selecting
inventory excludes most of the returns originally assigned RPC “N” and/or Audit Code “V.”
Office of Audit Comment: While we agree it is important to not delay refunds properly
owed to taxpayers, we also believe it is important to not issue large refunds to taxpayers who will
ultimately owe additional taxes. Based on the results of this and previous audits, we maintain it
is feasible for the IRS to initiate examinations of the returns of taxpayers that appear to owe a
significant amount of self-employment tax, have an available refund, and have not responded to
initial contact letters from the IRS, and we encourage the IRS to move in that direction. In
addition, it has long been noted by the IRS that “upstream” prevention efforts during returns
processing are lower in cost and less intrusive to taxpayers than one-on-one enforcement efforts
occurring later in the process. The 1998 report of the IRS Customer Service Task Force,
Reinventing Service at the IRS,20 recommended the IRS move additional workload upstream in
the compliance process to reduce costs and resolve customer account problems sooner. Some of
the steps discussed in the 1998 report to accomplish this (and to which the IRS committed)
included identifying issues early and adjusting refunds.




19
   For the purposes of the current and previous audits, we defined significant as $2,000 or more of self-employment
income for which no self-employment taxes were paid.
20
   IRS Publication 2197 (3-98).
                                                                                                           Page 14
                          Identification of Unreported Self-Employment Taxes
                                             Can Be Improved



                                                                                              Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine the effectiveness of the IRS’ process for
identifying and auditing taxpayers who are subject to but do not pay self-employment taxes. To
accomplish our objective, we:
I.      Reviewed the Internal Revenue Code, the Internal Revenue Manual, and other reference
        materials to determine the current requirements for the payment of self-employment tax.
        A. Determined the procedures for the review of income tax returns for individuals that
           appear to be subject to self-employment tax.
        B. Determined the current “no-change” rate for self-employment tax examinations and
           the current percentage of self-employment tax examinations that resulted in
           assessment of additional tax and full payment of that tax.
II.     Interviewed knowledgeable IRS officials to determine the actual procedures for
        identifying returns that appear to be subject to self-employment tax.
        A. Determined whether notices are still being sent to taxpayers potentially owing
           self-employment tax.
        B. Determined the status of the recommendation in our previous report1 for the
           Correspondence Examination function to immediately work significant cases with
           refunds available to offset against the unreported self-employment taxes.
        C. Determined whether there are any active programs or initiatives to promote
           self-employment tax compliance.
III.    Reviewed previous IRS Office of Internal Audit and Treasury Inspector General for Tax
        Administration audit reports pertaining to self-employment tax.
        A. Determined the status of previous recommendations, including changes to forms and
           improvements in employee training.
        B. Determined the status of any Requests for Information Services noted as incomplete
           in our prior report(s).




1
 The Internal Revenue Service Needs to Improve the Identification and Collection of Unreported Self-Employment
Taxes (Reference Number 2000-30-151, dated September 2000).
                                                                                                      Page 15
                           Identification of Unreported Self-Employment Taxes
                                              Can Be Improved



IV.     Coordinated with a Treasury Inspector General for Tax Administration information
        technology specialist to develop a computer program to select from the Individual Master
        File2 TY 2003 U.S. Individual Income Tax Returns (Form 1040) that appear to be subject
        to a significant amount of self-employment tax but for which no Form 1040
        Self-Employment Tax (Schedule SE) was filed. The criteria for selecting returns
        included:
        A. Wages less than $85,000 ($2,000 less than the Social Security tax threshold for 2003).
        B. RPC “S”3 not assigned to the return.
        C. Total net profit on Form 1040 Profit or Loss From Business (Schedule C), Profit or
           Loss From Farming (Schedule F), and/or line 21 (Other income) (RPC “N”)4 of
           $2,0005 or more.
        D. No self-employment tax reported.
        E. Statutory Employee code “1” not present.
        F. Schedule C Principal Business or Professional Activity Codes of 113000 (Forestry
           and Logging), 454390 (Other Direct Selling), 524210 (Insurance Agencies and
           Brokerages), or 813000 (Religious, Grantmaking, Civic, Professional, and Similar
           Organizations) not used.
V.      From the universe of 90,406 returns identified by the computer program in Step IV.,
        selected a statistically valid sample of 138 Forms 1040 for review. Our sample size was
        determined based on a 95 percent confidence level, an expected error rate of 10 percent,
        and a precision level of +5 percent. We established the reliability of the data obtained by
        performing various database analyses to confirm whether the data received were what
        had been requested and by tracing selected taxpayer accounts to the data posted in the
        IRS Integrated Data Retrieval System to confirm whether the data were accurate. We
        reviewed each return in the sample for the following criteria:
        A. Determined whether RPC “N” was properly assigned to those returns with “Other
           income” on Form 1040 line 21.
        B. Determined whether Audit Code “V”6 was properly assigned during returns
           processing.


2
  See Appendix V for a Glossary of Terms.
3
  RPC “S” indicates the taxpayer is not subject to self-employment tax.
4
  RPC “N” indicates nonemployee compensation is present on Form 1040 or U.S. Individual Income Tax Return
(Form 1040A) for the Examination Operations function to assess potential self-employment tax liability.
5
  For the purposes of the current and previous audits, our materiality threshold was self-employment income of
$2,000 or more for which no self-employment taxes were paid.
6
  Audit Code “V” indicates the presence of income that may be subject to self-employment tax.
                                                                                                         Page 16
                     Identification of Unreported Self-Employment Taxes
                                        Can Be Improved



      C. Reviewed the self-employment income reported on the return and determined
         whether the income should have been coded as exempt from self-employment tax.
      D. Determined the status and outcome of any examinations of those returns selected for
         audit.
VI.   Reviewed TY 2005 Forms 1040 to determine whether line 21 (Other income) is properly
      coded as potential self-employment income.
      A. Reviewed IRS guidance and procedures on the use of RPC “N” for amounts reported
         on line 21.
      B. Selected a statistically valid sample of 138 returns from a universe of
         24,989 TY 2005 Forms 1040 selected from the Individual Master File that reported
         more than a certain dollar amount on line 21 and were assigned RPC “N” and
         determined whether the “N” code was properly used. We established the reliability of
         the data obtained by tracing selected taxpayer accounts to the data posted in the
         Integrated Data Retrieval System to confirm whether the data were accurate. Our
         sample size was determined based on a 95 percent confidence level, an expected error
         rate of 10 percent, and a precision level of +5 percent.
      C. Selected a statistically valid sample of 138 returns from a universe of
         5,030,333 TY 2005 Forms 1040 selected from the Individual Master File that
         reported more than a certain dollar amount on line 21 and were not assigned RPC “N”
         and determined whether the “N” code should have been used. We established the
         reliability of the data obtained by tracing selected taxpayer accounts to the data
         posted in the Integrated Data Retrieval System to confirm whether the data were
         accurate. Our sample size was determined based on a 95 percent confidence level, an
         expected error rate of 10 percent, and a precision level of +5 percent.




                                                                                     Page 17
                      Identification of Unreported Self-Employment Taxes
                                         Can Be Improved



                                                                               Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Kyle R. Andersen, Director
L. Jeff Anderson, Audit Manager
Robert M. Jenness, Lead Auditor
W. George Burleigh, Senior Auditor
Debra D. Mason, Auditor
Dorothy E. Richter, Information Technology Specialist




                                                                                        Page 18
                      Identification of Unreported Self-Employment Taxes
                                         Can Be Improved



                                                                            Appendix III

                         Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Assistant Deputy Commissioner for Services and Enforcement SE
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                                    Page 19
                           Identification of Unreported Self-Employment Taxes
                                              Can Be Improved



                                                                                               Appendix IV

                                     Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Increased Revenue – Potential; $68,535,355 (over 5 years) in additional Social Security and
    Medicare taxes on 11,263 taxpayer accounts (see page 7).

Methodology Used to Measure the Reported Benefit:
We obtained from the Individual Master File1 a nationwide computer extract of 90,406 TY 2003
U.S. Individual Income Tax Returns (Form 1040) that reported total net profit of $2,0002 or more
on Form 1040 Profit or Loss From Business (Schedule C), Profit or Loss From Farming
(Schedule F), and/or line 21 (Other income) but did not include a Form 1040 Self-Employment
Tax (Schedule SE) assessing self-employment tax liability. From this population, we reviewed a
statistical sample of 138 Forms 1040. In our sample review, we noted that 30 (15.544 percent)
of 193 returns selected to obtain our sample size of 138 were not valid selections because the
returns had reported statutory income on Schedule C, but the taxpayers’ records in the
W-2 database did not include the audit code indicating the presence of statutory income. By
multiplying the total sample universe size of 90,406 by .15544, we reduced the sample universe
by 14,053 returns and the sample universe of valid Forms 1040 to 76,353, which did not affect
the sample size of 138.
We determined 28 (20.2899 percent) of the 138 valid Forms 1040 in our sample appeared to
have self-employment tax liabilities but were not selected for audit. By multiplying
.202899 x 76,353, we project that 15,4923 TY 2003 Forms 1040 would have had
self-employment tax liabilities but were not selected for audit. Assuming the 15,492 returns
would have been closed as no-change returns at the same rate as in Fiscal Year 2006
(27.3 percent), we project that 4,229 returns would have been closed as no-change returns and
11,263 would have owed additional taxes. We determined an average potential assessment of


1
  See Appendix V for a Glossary of Terms.
2
  For the purposes of the current and previous audits, our materiality threshold was self-employment income of
$2,000 or more for which no self-employment taxes were paid.
3
  Our projection is based on a 95 percent confidence level and a precision (range) of +5,119 (20,611 – 10,373
Forms 1040).
                                                                                                          Page 20
                           Identification of Unreported Self-Employment Taxes
                                              Can Be Improved



$1,217 for each return not selected for audit. By multiplying $1,217 by 11,263 returns, we
project a total of $13,707,071 in self-employment tax liabilities could be assessed per year.
Multiplying this amount by 5 years, we estimate the potential assessment of $68,535,355 in
additional Social Security and Medicare taxes for these returns.

Type and Value of Outcome Measure:
•   Increased Revenue – Potential; $26,583,040 (over 5 years) in additional Social Security and
    Medicare taxes on 2,816 taxpayer accounts (see page 7).

Methodology Used to Measure the Reported Benefit:
We used the population and sample described in the first Outcome Measure and determined
7 (5.0725 percent) of the 138 valid Forms 1040 in our sample were initially selected for audit but
were later surveyed (meaning the audit was closed with little or no examination of the return) for
no reason that was apparent on the returns. By multiplying .050725 x 76,353, we project that
3,8734 TY 2003 Forms 1040 would have had self-employment tax liabilities but would have
been surveyed without apparent justification. Assuming the 3,873 returns would have been
closed as no-change returns at the same rate as in Fiscal Year 2006 (27.3 percent), we project
that 1,057 returns would have been closed as no-change returns and 2,816 would owe additional
taxes. We determined an average potential assessment of $1,888 for each return surveyed
without apparent justification. By multiplying $1,888 by 2,816 returns, we project a total of
$5,316,608 in self-employment tax liabilities could be assessed per year. Multiplying this
amount by 5 years, we estimated the potential assessment of $26,583,040 in additional Social
Security and Medicare taxes for these returns.




4
 Our projection is based on a 95 percent confidence level and a precision (range) of +2,793 (6,666 – 1,080
Forms 1040).
                                                                                                             Page 21
                         Identification of Unreported Self-Employment Taxes
                                            Can Be Improved



                                                                                Appendix V

                                   Glossary of Terms

Audit Code                                   Audit codes are used to alert the Examination
                                             Operations function about a particular condition on
                                             the return.
Audit Information Management System          The Audit Information Management System is a
                                             computer system used by the Small Business/
                                             Self-Employed Division Examination Operations
                                             function and others to control returns, input
                                             assessments/adjustments to the Master File, and
                                             provide management reports.
Campus                                       Campuses are the data processing arm of the IRS.
                                             They process paper and electronic submissions,
                                             correct errors, and forward data to the Computing
                                             Centers for analysis and posting to taxpayer
                                             accounts.
Code and Edit Function                       The Code and Edit function ensures tax forms are
                                             complete and include the proper codes to allow
                                             computation of tax liabilities.
Data Book                                    The Data Book is published annually by the IRS
                                             and contains statistical tables and organizational
                                             information on a fiscal year basis.
Freeze Code                                  Freeze codes are alpha codes that identify specific
                                             conditions in the Master File that can be generated
                                             systemically during processing operations or input
                                             manually.
Individual Master File                       The Individual Master File is the IRS database that
                                             maintains transactions or records of individual tax
                                             accounts.
Integrated Data Retrieval System             The Integrated Data Retrieval System is the IRS
                                             computer system capable of retrieving or updating
                                             stored information; it works in conjunction with a
                                             taxpayer’s account records.




                                                                                         Page 22
                       Identification of Unreported Self-Employment Taxes
                                          Can Be Improved



Joint Audit Management Enterprise System   The Joint Audit Management Enterprise System is
                                           the Department of the Treasury’s automated audit
                                           tracking and management control system.
Master File                                The Master File is the IRS database that stores
                                           various types of taxpayer account information and
                                           contains data on individuals, businesses, and
                                           employee plans and exempt organizations.
Midwest Automated Compliance System        The Midwest Automated Compliance System is a
                                           standalone, automated database that allows
                                           immediate access to 3 years’ of tax return
                                           information and is used primarily for classifying
                                           and selecting returns for audit.
Project Code                               Project codes are 4-digit codes used on the Audit
                                           Information Management System to identify a
                                           special program to which an examination belongs.
Service Center                             Service Center is the former term for Campus.
Statutory Income                           Statutory income involves earnings reported to
                                           taxpayers on a Wage and Tax Statement
                                           (Form W-2), with employment taxes withheld by
                                           the employer but reported as self-employment
                                           income on U.S. Individual Income Tax Return
                                           (Form 1040) Profit or Loss From Business
                                           (Schedule C) or Form 1040 Net Profit From
                                           Business (Schedule C-EZ) rather than as wages.
                                           Because employment taxes are withheld by the
                                           employer, statutory income is not subject to
                                           self-employment tax.
Tax Examiner                               Among other duties, a tax examiner processes tax
                                           returns, establishes and edits tax account records,
                                           and determines proper tax liabilities.
Tax Gap                                    The gross tax gap is the difference between the
                                           total taxes that taxpayers should have paid and the
                                           total taxes that were actually paid timely.
W-2 Database                               The W-2 database is created by the Treasury
                                           Inspector General for Tax Administration using
                                           IRS information reported on Forms W-2 for each
                                           tax year.




                                                                                       Page 23
       Identification of Unreported Self-Employment Taxes
                          Can Be Improved



                                                  Appendix VI

Management’s Response to the Draft Report




                                                            Page 24
Identification of Unreported Self-Employment Taxes
                   Can Be Improved




                                                     Page 25
